UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3590
Richard L. Gathercole
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:20-cv-03047-RGK)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
March 16, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3590

Richard L. Gathercole
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:20-cv-03047-RGK)
JUDGMENT

Before KELLY, ERICKSON, and GRASZ, Circuit Judges.
This appeal comes before the court on appellant’s application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
February 08, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

4:17-cr-03096-RGK-CRZ Doc # 146 Filed: 11/30/20 Page 1 of 1 - Page ID # 452
y

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF AMERICA
Plaintiff,

4:17CR3096

vs.
JUDGMENT
RICHARD L. GATHERCOLE,
Defendant.

IT IS ORDERED that judgment is entered dismissing the pending § 2255
motion and any amendments or supplements thereto with prejudice. No certificate
of appealability has been or will be issued.
Dated this 30th day of November, 2020.
BY THE COURT:

Richard G. Ko
Senior United States District Judge

4:17-cr-03096-RGK-CRZ Doc # 145 Filed: 11/30/20 Page 1 of 2 - Page ID # 450
♦1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF AMERICA,
Plaintiff,

4:17CR3096

vs.

MEMORANDUM AND ORDER
RICHARD L. GATHERCOLE
Defendant.

When one weeds through the prolix and frivolous filings in this court and the
Court of Appeals, Gathercole, sometimes known infamously and nationally, as the
“AK 47 bandit,” mainly asserts (filing 106; filing 107) that his counsel was
ineffective and a “global” settlement that called for dismissal of a California case
was not complied with by the government. Nonsense.
First, any fair reading-of the record shows that his counsel was effective and
did a terrific job for him (e.g., filing 78) particularly understanding that the case was
indefensible. (E.g., filing 103.) Second, the government has represented that the
California case has been dismissed and has submitted evidence to prove it. (Filing
125.) Any other claims are of the make-weight variety and are barred by the
collateral attack waiver in the plea agreement.
Finally, a defendant cannot appeal an adverse ruling on a § 2255 motion unless
he or she is granted a certificate of appealability. 28 U.S.C. § 2253(c)(1); 28 U.S.C.
§ 2253(c)(2); Fed. R. App. P. 22(b)(1). The standards for certificates (1) where the
district court reaches the merits or (2) where the district court rules on procedural
grounds are set forth in Slack v. McDaniel, 529 U.S. 473, 484-485 (2000). I have
applied the appropriate standard and determined that the defendant is not entitled to
a certificate of appealability.

RECEIVED
MAY - 6 2021
supremefcourtLuisk

4:17-cr-03096-RGK-CRZ Doc # 145 Filed: 11/30/20 Page 2 of 2 - Page ID # 451
'T

. '*

IT IS ORDERED that the motion for § 2255 relief (filing 106) and any
supplements (e.g., filing 107) are dismissed with prejudice. A separate judgment will
be issued. No certificate of appealability has been or will be issued.
Dated this 30th day of November, 2020.
BY THE COURT:

Richard G. Kopf
Senior United States District Judge

2

